      U.S. Department of the Interior
      Office of Inspector General

                                    Audit Report
          Saipan Harbor Improvement Project
               Commonwealth Ports Authority
  Commonwealth of the Northern Mariana Islands




Report No. 2003-I-0073                  September 2003
                                                                                  N-IN-NMI-003-00-R


                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                 1849 C Street, NW – Mail Stop 5341
                                       Washington, DC 20240


                                                                                September 30, 2003

Mr. Jose Lifoifoi
Chairman, Board of Directors
Commonwealth Ports Authority
P.O. Box 1055
Saipan, MP 96950

Subject: Report on the Saipan Harbor Improvement Project, Commonwealth Ports Authority,
         Commonwealth of the Northern Mariana Islands (No. 2003-I-0073)

Dear Mr. Lifoifoi:

     This report presents the results of our audit of the Saipan Harbor Improvement Project,
Commonwealth Ports Authority.

       Section 5(a) of the Inspector General Act (5 U.S.C. app.3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by November 28, 2003. The response should provide
the information requested in Appendix 5 and should be addressed to me at the address above, with a
copy to our Caribbean Field Office, Ron deLugo Federal Building – Room 207, St. Thomas, VI
00802.

                                              Sincerely,



                                              Roger La Rouche
                                              Assistant Inspector General for Audits

cc:   Honorable Juan N. Babauta,
         Governor, Commonwealth of the Northern Mariana Islands
      Mr. Carlos Salas,
         Executive Director, Commonwealth Ports Authority
[ Page intentionally left blank ]
                                                                                  N-IN-NMI-003-00-R


                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                 1849 C Street, NW – Mail Stop 5341
                                       Washington, DC 20240


                                                                                September 30, 2003

Memorandum

To:         David B. Cohen - Deputy Assistant Secretary for Insular Affairs

From:       Roger La Rouche - Assistant Inspector General for Audits

Subject:    Report on the Saipan Harbor Improvement Project, Commonwealth Ports Authority,
            Commonwealth of the Northern Mariana Islands (No. 2003-I-0073)

     This report presents the results of our audit of the Saipan Harbor Improvement Project,
Commonwealth Ports Authority.

       Section 5(a) of the Inspector General Act (5 U.S.C. app.3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by November 28, 2003. The response should provide
the information requested in Appendix 5 and should be addressed to me at the address above, with a
copy to our Caribbean Field Office, Ron deLugo Federal Building – Room 207, St. Thomas, VI
00802.
[ Page intentionally left blank ]
CONTENTS
                   Background .......................................................................... 1
INTRODUCTION       Objective and Scope ............................................................ 2
                   Prior Audit Coverage ........................................................... 3


                   Management of the Harbor Project....................................... 4
RESULTS OF AUDIT


                   ...............................................................................................10
RECOMMENDATIONS

                   1.   Monetary Impact.............................................................13
APPENDICES         2.   Contract Modifications ...................................................14
                   3.   Commonwealth Ports Authority Response.....................15
                   4.   Office of Insular Affairs Response .................................28
                   5.   Status of Recommendations............................................30
[ Page intentionally left blank ]
INTRODUCTION

               In October 1981, Commonwealth Public Law 2-48 established
BACKGROUND     the Commonwealth Ports Authority as a public corporation of the
               Commonwealth of the Northern Mariana Islands (CNMI) and
               defined the powers and duties of the Ports Authority. These
               powers and duties include the adoption and enforcement of rules
               and regulations for the operation of its ports. The Ports Authority
               was given responsibility for the operation, maintenance, and
               improvement of all airport and seaport facilities on the islands of
               Saipan, Tinian and Rota. A Board of Directors, which consists of
               seven members who are appointed by the Governor and serve
               4-year terms, governs the Ports Authority.

               The Saipan seaport consists of two docks (Baker and Charlie) that
               were built during World War II and were in a state of disrepair.
               The U.S. Department of the Interior recommended that new
               docks be constructed instead of trying to repair the existing
               facilities because the cost of repair would be approximately equal
               to the cost of constructing new docks.

               To finance the construction of the Saipan Harbor, the Ports
               Authority received $23.5 million from the U.S. Department of the
               Interior, which consisted of a $10 million direct grant and
               $13.5 million from covenant funds. The covenant funds were
               used by the Commonwealth Development Authority (CNMI’s
               authorized agent) to secure revenue bonds. The proceeds of the
               bonds were loaned to public agencies to finance capital
               improvement projects. In addition, the Ports Authority obtained
               independent financing through the public issuance of two
               tax-exempt municipal bonds totaling $56.3 million to finance a
               portion of the project. The total estimated project cost was
               $50 million.

               In January 1993, the Ports Authority competitively awarded the
               construction project to the lowest bidder and entered into a
               fixed-price contract totaling $36 million. However, because of
               poor construction management and extensive delays, the project
               was not substantially completed until April 1999, costs had
               escalated to $50 million as of September 30, 2000, and the Ports
               Authority continued to incur costs for unfinished jobs associated
               with the Saipan Harbor project.


               The Office of Insular Affairs (OIA) has a Field Representative

                              1
                 stationed on Saipan. According to OIA’s administrative manual,
                 Chapter 3, Field Representatives have a number of grant
                 monitoring responsibilities. These responsibilities include
                 conducting quarterly surveys of the grant projects, investigating
                 compliance with grant terms and conditions, advising OIA’s
                 Grants Manager to deny reimbursement of funds when it is
                 determined that the insular government is not in compliance with
                 grant terms and conditions, and working with the insular
                 governments to assist in correcting deficiencies so reimbursement
                 of expenditures may occur as quickly as possible.


                 The objective of the audit was to determine whether the Ports
OBJECTIVES AND   Authority had (1) complied with applicable Federal and local
SCOPE            laws and regulations in awarding the design and construction
                 contracts; (2) administered the U.S. Department of the Interior
                 grant in accordance with applicable laws and regulations; and (3)
                 adequately monitored project operations. A secondary audit
                 objective was to determine whether the Office of Insular Affairs,
                 U.S. Department of the Interior had adequately fulfilled its grant
                 oversight responsibilities. The scope of the audit included a
                 review of the Ports Authority’s project planning, procurement,
                 and construction files, and Federal grant records from fiscal years
                 1998 through 2000 and other periods as appropriate. We also
                 conducted physical inspections of the Saipan and Rota West
                 harbors.

                 Our review was made, as applicable, in accordance with the
                 “Government Auditing Standards,” issued by the Comptroller
                 General of the United States. Accordingly, we included such
                 tests of records and other auditing procedures that were
                 considered necessary under the circumstances.

                 As part of the audit, we evaluated the system of internal controls
                 related to the management of the Saipan Harbor project to the
                 extent we considered necessary to accomplish the audit
                 objectives. Our review identified internal control weaknesses at
                 the Commonwealth Ports Authority and the Office of Insular
                 Affairs, U.S. Department of the Interior which are discussed in
                 the Results of Audit section of this report. Our recommendations,
                 if implemented, should improve the internal controls in these
                 areas.


                 During the past 5 years, neither the U.S. General Accounting
PRIOR AUDIT      Office nor the Office of Inspector General has issued any reports

                                2
COVERAGE   on the Commonwealth Ports Authority




                       3
RESULTS OF AUDIT
                                    We found that the Commonwealth Ports Authority did not
MANAGEMENT OF                       effectively manage the Saipan Harbor project (Figure 1).
THE HARBOR                          Specifically, the Authority:
PROJECT
                                          Did not adequately analyze or justify contract change orders
                                          and incurred contract cost overruns totaling $6.9 million.

                                          Entered into a noncompetitive contract for construction
                                          management services totaling $3.3 million. The Office of
                                          Insular Affairs (OIA) was aware that the construction
                                          management contract was awarded without a formal bid,
                                          but did not intervene.

                                          Improperly used liquidated damages of $980,000 from the
                                          Saipan Harbor project for a project on Rota.




 Figure 1. Aerial view of the Saipan Harbor after completion of the improvement project.
 (Office of Inspector General photograph)




                                                         4
Change Orders of       The Ports Authority noncompetitively awarded nine construction
$6.9 Million Awarded   change orders totaling $6.9 million, increasing the original
Without Competition    construction contract amount from $36 million to $42.9 million
                       (see Appendix 2).

                       According to the grant terms and conditions, the grantee is
                       required to follow the administrative requirements (referred to as
                       the Common Rules) contained in the Code of Federal Regulations
                       (43 CFR 12). The requirements for procurements which are
                       financed with Federal funds are that Insular Areas follow “the
                       same policies and procedures it uses for procurements from its
                       non-Federal funds.” Both the CNMI’s and the Ports Authority’s
                       procurement rules and regulations require competitive
                       procurements. Part 1.2 of the Ports Authority’s Procurement
                       Rules and Regulations states, “The underlying purposes and
                       policies of these regulations are: . . . (c) to provide increased
                       economy in Authority procurement activities and to maximize to
                       the fullest extent practicable the purchasing value of Authority
                       funds and (d) to foster effective broad-based competition within
                       the free enterprise system.” Part 3.2(1) also states, “The purchase
                       of all supplies and materials and all construction works, when
                       expenditure exceeds $25,000.00, shall be by contract let to the
                       lowest responsible bidder.” Further, Part 1.4 of the Procurement
                       Rules and Regulations states, “These regulations apply to every
                       expenditure of Authority funds which are not subject to federal
                       procurement regulations. . . . Nothing in these regulations shall
                       be construed to prevent the Authority from complying with the
                       terms and conditions of any grant, cooperative agreement or
                       memoranda of understanding.”

                       Competition will generally result in lower costs. For example, in
                       a December 12, 1996, letter to the Authority’s Executive Director
                       regarding additional dredging to deepen the harbor from 35 feet
                       to 40 feet, the construction manager recommended that “it may be
                       worthwhile for CPA [Commonwealth Ports Authority] to call for
                       competitive proposals as opposed to a change order.” The
                       construction manager further stated, “The earlier example of the
                       Baker Bay Modification [Change Orders 2 and 3] shows that
                       CPA actually saved [money] by deleting specific items out of
                       [Samsung Construction Co., Ltd.]’s contract and rebidding. In
                       fact, on two occasions [Samsung]’s subsequent bid on work
                       deleted from their contract ended up considerably lower than
                       their price on the original bid.” However, the Ports Authority did
                       not follow the construction manager’s recommendation.

                       The Code (43 CFR, Part 12.80(d)) also states that the grantee

                                      5
                           must inform the Federal agency about “problems, delays, or
                           adverse conditions which will materially impair the ability to
                           meet the objective of the award. This disclosure must include a
                           statement of the action taken, or contemplated, and any assistance
                           needed to resolve the situation.” In addition, the grant terms and
                           conditions required that the CNMI Government notify the Office
                           of Insular Affairs immediately of any problems so that sufficient
                           technical assistance could be provided to resolve the problems.

                           We found no documentation that the Ports Authority had
                           attempted to notify OIA of the proposed construction change
                           orders or requested technical assistance to perform cost analyses
                           to determine whether the additional costs proposed by the
                           construction contractor were fair and reasonable. Therefore, the
                           Ports Authority did not have reasonable assurance that it had
                           obtained the most economical price for the additional work
                           performed because it did not ensure that all contract
                           modifications were awarded competitively or otherwise
                           determine that proposed costs were reasonable.

                           Finally, we noted a conflict between the construction contract
                           provisions and the procurement requirements. Section 40-02(1)
                           of the construction contract stated that the Contracting Officer
                           was authorized to make alterations in the work, provided that the
                           aggregate amount of the alterations did not change the total
                           contract price by more than 25 percent, this contract provision
                           contradicts the Authority’s policy that any expenditure over
                           $25,000 be done through competitive procurement. The Port
                           Authority should not stipulate contract terms that conflict with
                           grant-related requirements.


Noncompetitive             The Ports Authority awarded a noncompetitive contract, totaling
Construction               $3.3 million, to Efrain Camacho Consulting Engineers, to provide
Management Contract        construction management services for the Saipan Harbor project.
Awarded for $3.3 Million    As we previously noted, any contract resulting from the grant
                           was required to be awarded on a competitive basis. Despite these
                           requirements, we found that during a July 25, 1992 meeting, the
                           Authority’s Board of Directors unanimously approved the
                           selection of Camacho to provide construction management
                           services for the Saipan Harbor project. Specifically, the minutes
                           of the meeting state:


                              The Chairman felt that, since the Board has decided to
                              award the Saipan Harbor Improvement Project to [a firm

                                         6
   that was later replaced], construction management be
   selected to oversee the project. The Chairman noted that
   Efrain Camacho Consulting Engineers has been meeting
   and providing CPA [the Authority] with technical
   assistance without a formal contract. The Board was
   provided with a copy of Mr. Camacho’s fee proposal
   dated May 14, 1992.

According to the minutes of a November 27, 1992 board meeting,
the former Executive Director stated, “It is an FAA [Federal
Aviation Administration] requirement that CPA advertise for
airport/seaport consulting for design and construction
management services. The Request for Qualification is due on
November 30.” We believe, however, that this attempt at
competition was simply after-the-fact justification to support a
decision already made by the Board to award the construction
management contract to Camacho. The minutes of the
November 27, 1992 meeting also stated that a board member
“emphasized that special consideration be given to those
professionals who are actively helping CPA” and later “again
stressed to the Board to remember the efforts and continuity of
the professionals that are helping CPA.” The minutes also noted
that “in the interest of expediency, CPA had one firm do both
A&E (architects and engineers) and CM (construction and
management) services.” These remarks, combined with those
made at the July 25, 1992 board meeting, suggest that
competitive procurement of the construction management
services was not legitimately contemplated and that Camacho
would be given preference because he was already performing
work for the Authority.

Subsequently, on April 15, 1993, the Authority’s Board of
Directors repealed in its entirety Part 3.7 of the Authority’s
Procurement Rules and Regulations, which provided competitive
selection procedures for professional, advisory, and technical
services. Seven days later, the Authority entered into a
noncompetitive $1.5 million contract with Camacho.
Consequently, there was no assurance that the Ports Authority
received a fair and reasonable price for the construction
management services. Additionally, there were nine amendments
to the construction management contract, totaling $1.8 million,
which changed the scope of work and increased the total contract
price to $3.3 million.

Our review of board minutes for January 1993 through
April 1993 revealed that no justification was given by the Board

              7
                            of Directors as to why it repealed Part 3.7 of the Procurement
                            Rules and Regulations. In addition, no documents were provided
                            by the Ports Authority to show that it had obtained the approval
                            of the grantor agency for the noncompetitive contract or that it
                            had issued a request for proposals from other
                            architectural/engineering firms. Further, in an October 15, 2001
                            document, the Authority’s Board Secretary wrote that the repeal
                            of Part 3.7 of the Procurement Rules and Regulations had been
                            brought to the attention of the Authority’s legal counsel and that
                            the legal counsel had indicated that he did not know the reason
                            why the Authority had repealed Part 3.7.

                            We interviewed the Authority’s Executive Director, the Saipan
                            Ports Manager, and a member of the current Board of Directors,
                            all of whom stated that they were not aware that the previous
                            Board had repealed the section of the Procurement Rules and
                            Regulations related to professional, advisory, and technical
                            services. The Board member who we interviewed also stated he
                            did not agree with the method in which the construction
                            management contract was handled by the previous Board. He
                            stated that there appeared to be a lack of checks and balances
                            where the construction manager was concerned. The Executive
                            Director stated that he had not seen any documentation that the
                            previous administration had issued requests for proposals or
                            required a statement of qualifications from the construction
                            management firm, and our review also did not disclose any such
                            documentation. The Executive Director also stated that, in
                            retrospect, the Ports Authority should have issued a request for
                            proposals in order to ensure that the Authority was getting the
                            best possible price, which is why he now requires that
                            competitive proposals be submitted for professional service
                            contracts.


Office of Insular Affairs   OIA’s Federal Capital Improvement Projects Coordinator told us
Did Not Intervene           that although he had been aware of the problems and delays in
                            completing the project, he had “moved on to other projects” once
                            Interior funds were exhausted in 1994. In addition, the Projects
                            Coordinator stated that “the Office of Insular Affairs does not get
                            involved in the procurement selection of contractors.” However,
                            we found that in two of six inspections of the Saipan project
                            conducted by the Projects Coordinator, he had identified that the
                            construction management contract was awarded without a formal
                            bid, which was contrary to Federal regulations. However, no
                            action was taken to address the deficiencies. We believe that
                            OIA should develop guidance to address deficiencies in

                                           8
                         procurements made with grant funds.


Use of Saipan Harbor     The Ports Authority may have improperly used $980,000 of
Project Funds Totaling   $1 million derived from liquidated damages paid by the
$980,000 on Another      construction contractor for construction delays in Saipan. The
Project Questionable     funds were used to pay costs claimed by the construction
                         contractor for additional dredging work, equipment repairs, and
                         various miscellaneous items related to a project to renovate the
                         Rota West Harbor.

                         We found that the Ports Authority had not notified or obtained
                         prior approval from OIA to use funds applicable to the Saipan
                         Harbor improvement project for a project on Rota. OIA funded
                         47 percent ($23.5 million of $50 million) of the Saipan Harbor
                         project. Consequently, we believe that OIA had a vested interest
                         in $460,600 (47 percent) of the $980,000 value of construction
                         work that was performed on Rota in lieu of liquidated damages.
                         OIA should resolve the issue concerning the $460,600. The
                         Authority’s Executive Director agreed that the liquidated
                         damages should not have been used for the project on Rota
                         because there were more urgent projects that needed to be done at
                         the Saipan Harbor.




                                       9
RECOMMENDATIONS

                   We recommend that the Chairman of the Board of Directors
TO THE CHAIRMAN,   instruct the Executive Director to:
BOARD OF
DIRECTORS                1. Establish policies and procedures to ensure compliance
                   with specified conditions of grant awards.

                        2. Reinstate the competitive procurement rules and
                   regulations for professional, advisory, and technical service
                   contracts related to Federal funds.


                   We also recommend that the Deputy Assistant Secretary for
TO THE DEPUTY      Insular Affairs:
ASSISTANT
SECRETARY FOR            3. Develop policies and procedures for addressing
INSULAR AFFAIRS    deficiencies in procurements made with OIA grant funds.

                         4. Resolve the questionable use of liquidated damages
                   applicable to the Saipan Harbor project for the project on Rota.


                   The response (Appendix 3) to the draft report from the Executive
COMMONWEALTH       Director of the Commonwealth Ports Authority concurred with
PORTS AUTHORITY    Recommendations 1, 2, and 3, and indicated that corrective
RESPONSE           actions would be taken. However, we request additional
                   information for all three recommendations (see Appendix 5).

                   The response also recommended changes and clarifications to the
                   report and expressed disagreement with our questioning of    o
                   $980,000 (of out of $1.7 million) related to the Rota West
                   Harbor.


                   Based on the response from the Ports Authority, we modified the
OFFICE OF          report as appropriate and clarified (1) the requirement of the grant
INSPECTOR          terms and conditions that the Ports Authority use competitive
GENERAL REPLY      procurement procedures and (2) the lack of competition with
                   regard to construction contract modifications and the construction
                   management contract.

                   Regarding the use of liquidated damages of $980,000, we
                   maintain our position that because OIA contributed a total of

                                     10
                    $23.5 million toward the cost of constructing the Saipan Harbor
                    project, it has a vested interest in the disposition of the liquidated
                    damages. Therefore, the Ports Authority should work with OIA
                    to determine how to resolve this matter.


                    The response (Appendix 4) to the draft report from the acting
OFFICE OF INSULAR   Director of Insular Affairs did not concur with two
AFFAIRS RESPONSE    recommendations that were addressed to the Office of Insular
                    Affairs. Based on the response and additional analysis, we have
                    revised the two recommendations and request that the Deputy
                    Assistant Secretary for Insular Affairs provide the information
                    shown in Appendix 5. General comments from the acting
                    Director’s response are summarized in the following paragraph.

                    The response stated that OIA effectively uses available resources
                    to monitor the use of grant funds and takes corrective action to
                    recover grant funds that are used inappropriately, and that OIA
                    was not required to monitor the Saipan Harbor project once the
                    grant funds were exhausted. Regarding the contract for
                    construction management, the response stated that the
                    Commonwealth Ports Authority may have acted properly when it
                    awarded the contract noncompetitively because Federal
                    procurement regulations would not apply to the Authority.
                    Finally, the response stated that OIA management officials were
                    not included in the audit exit conference that was held on
                    November 29, 2001.


                    Regarding grant administration, the response stated specifically
OFFICE OF           that “we do not understand the audit’s conclusion that the Office
INSPECTOR           of Insular Affairs retains an oversight role in the administration of
GENERAL REPLY       the Port Project” where “Federal funds used in this project were
                    fully expended by August 1994, six years prior to commencement
                    of this draft audit.” We note that construction of the project
                    started in 1993 and ran into 2000. Funds from OIA were used to
                    finance the construction. The fact that the Authority obtained all
                    grant funds in fiscal year 1994 does not automatically signal that
                    grant funds were used in accordance with the grant agreement.
                    We believe that OIA should continue to monitor projects financed
                    with Federal funds until the project is complete – thus assuring
                    that Federal funds were used effectively.

                    In regard to procurement, the response correctly notes that the
                    Code of Federal Regulations allows “States” (defined to include
                    the Insular Areas) to use their own procurement procedures. We

                                   11
have clarified in the report that both the CNMI’s and the Ports
Authority’s procurement rules and regulations require the use of
competitive procurement procedures.

We agree that OIA did not attend the audit exit conference.
According to our records, on October 29, 2001, we called OIA’s
Federal Capital Improvement Projects Coordinator on Saipan to
schedule an audit exit conference, and OIA headquarters
personnel were also informed of the exit conference. In addition,
the Projects Coordinator provided a copy of our preliminary draft
report to OIA headquarters personnel prior to the audit exit
conference. Therefore, we believe OIA management officials had
ample opportunity to review the preliminary draft report and
participate in the exit conference.




              12
APPENDIX 1 - MONETARY IMPACT
                                                                                             Funds To Be Put
FINDING AREAS                                             Questioned Costs                    To Better Use

Improper Use of Project Funds
  for Rota West Harbor                                        $460,600*                          $519,400




__________
*This amount represents the Federal share (47 percent) of the value of work in lieu of liquidated damages that was
improperly used on Rota.




                                                           13
APPENDIX 2 - CONTRACT MODIFICATIONS

Change Order                                                              Change Order
  Number                     Change Order Description                       Amount

     1         Steel sheet substitution, removal and disposal of
               underwater debris, waste oil and associated clean-up
               materials                                                  $     (25,000)

     2         Baker Bay modification, demolition plan, and removal
               and disposal of underwater debris                               187,823

     3         Increased volume of work and materials associated with
               the Baker Bay modification, elimination of work from
               construction contract, and performance of community
               work at Managaha Island and Rota West Harbor                (1,953,249)

     4         Deletion of dredging work at the turning basin,
               increased dredging at the entrance channel, and deletion
               of transit shed removal                                          (26,000)

     5         Purchase of additional fenders, increased dredging
               work at entrance channel, decreased dredging and
               revetment work at Able Dock, extension of fire line
               protection, and increased filling work                          388,034

     6         Increased dredging work at entrance channel, turning
               basin and berth, above water disposal and filling,
               dredging work and improvements at Delta Dock, and
               deletion of dredging work at C-4 Berth                         7,600,000

     7         Additional dredging work at Rota West Harbor
                                                                               741,327

     8         Payment corrections                                                    0

     9         Deletion of upland disposal work                                 (32,235)

   Total                                                                   $6,880,700




                                                  14
APPENDIX 3 - PORTS AUTHORITY RESPONSE




                    15
      Appendix 3
     Page 2 of 13




16
      Appendix 3
     Page 3 of 13




17
      Appendix 3
     Page 4 of 13




18
      Appendix 3
     Page 5 of 13




19
      Appendix 3
     Page 6 of 13




20
      Appendix 3
     Page 7 of 13




21
      Appendix 3
     Page 8 of 13




22
      Appendix 3
     Page 9 of 13




23
       Appendix 3
     Page 10 of 13




24
       Appendix 3
     Page 11 of 13




25
       Appendix 3
     Page 12 of 13




26
       Appendix 3
     Page 13 of 13




27
APPENDIX 4 - INSULAR AFFAIRS RESPONSE




                    28
     Appendix 4
     Page 2 of 2




29
APPENDIX 5 - STATUS OF RECOMMENDATIONS

  Finding/Recommendation
         Reference            Status                          Action Required

         1 and 2           Management         Indicate the status of the recommendations
                           concurs;           and, for recommendations not yet
                           additional         implemented, provide a plan of action,
                           information        including the target dates and the titles of the
                           requested.         officials responsible for implementing the
                                              recommendations.

         3 and 4           Unresolved.        Respond to the revised recommendations. If
                                              concurrence is indicated, provide a plan of
                                              action, including the target dates and the titles
                                              of the officials responsible for implementing
                                              the recommendations.




                                         30
                           How to Report
               Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone—Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:        U.S. Department of the Interior
                          Office of Inspector General
                          Mail Stop 5341-MIB
                          1849 C Street, NW
                          Washington, DC 20240
             Phone:       24-Hour Toll Free               800-424-5081
                          Washington Metro Area           202-208-5300
                          Hearing Impaired (TTY)          202-208-2420
                          Fax                             202-208-6081
                          Caribbean Field Office          340-774-8300
                          Hawaiian Field Office           808-525-5310
             Internet:    www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
